U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Donald J. Trump, et al. v. Mazars USA, LLP, et al., No. 19-715
Donald J. Trump, et al. v. Deutsche Bank AG, et al., No. 19-760

Dear Mr. Harris:
On April 27, 2020, this Court ordered the parties and the United States to file supplemental
letter briefs addressing whether the political-question doctrine or related justiciability principles
bear on the Court’s adjudication of these cases. In the United States’ view, these cases are
justiciable.
The Court’s order points at an understandable concern. “Repeated and essentially head-on
confrontations between the life-tenured branch and the representative branches of government will
not, in the long run, be beneficial to either.” Valley Forge Christian College v. Americans United
for Separation of Church & State, Inc., 454 U.S. 464, 474 (1982) (citation omitted). That is
especially true in the fraught context of disputes concerning the respective interests of the
Legislative and Executive Branches in information, which can present “nerve-center constitutional
questions.” United States v. AT&T Co., 551 F.2d 384, 394 (D.C. Cir. 1976). Indeed, historically,
“in analogous confrontations between one or both Houses of Congress and the Executive Branch,
no suit was brought on the basis of claimed injury to official authority or power,” Raines v. Byrd,
521 U.S. 811, 826 (1997), reflecting the recognition that inter-Branch informational suits are not
“traditionally thought to be capable of resolution through the judicial process,” id. at 819 (citation
omitted).
Critically, though, the reason why a suit directly between the Branches over a congressional
subpoena for the records of an executive official generally would not be justiciable is that the
plaintiff would be seeking to vindicate interests that are institutional in nature, and such
institutional injuries do not support Article III standing. See Raines, 521 U.S. at 821-824. If, for
instance, respondents had issued these subpoenas directly to the President, and he had resisted
compliance on the ground that the subpoenas exceed respondents’ Article I powers in light of his
Article II prerogatives, respondents would not have had Article III standing to vindicate their
purely institutional interest in enforcing those subpoenas. See id. at 826-829. Instead, the parties
would have had to engage in the negotiation and accommodation process that ordinarily is used to
resolve such nonjusticiable inter-Branch disputes. Involving courts in such disputes would risk
“damaging the public confidence that is vital to the functions of the Judicial Branch, by embroiling

the federal courts in a power contest nearly at the height of its political tension” and raising the
“specter of judicial readiness to enlist on one side of a political tug-of-war.” Id. at 833-834 (Souter,
J., concurring in the judgment) (citation omitted).
No doubt recognizing that it could not proceed directly against the President, respondents
attempted to end-run the usual political process by instead targeting the third-party custodians of
the President’s records. Those third parties, unsurprisingly, have stated that they will comply with
the subpoenas and disclose the requested information. The subpoenas thus threaten the President
with a personal and concrete Article III injury: the disclosure of his personal records. That fact
makes these cases different from direct suits between the Branches. This Court has long held that
plaintiffs, including governmental officials, who seek to vindicate personal interests—even ones
that flow from the public offices they hold—have suffered cognizable injuries-in-fact to support
Article III standing, regardless of whether the merits of their legal claims touch on the separation
of powers or implicate inter-Branch disputes. E.g., Zivotofsky ex rel. Zivotofsky v. Clinton, 566
U.S. 189 (2012); Clinton v. City of New York, 524 U.S. 417 (1998); Powell v. McCormack, 395
U.S. 486 (1969). In such cases, the political-question doctrine does not preclude adjudication of
the merits of the dispute, unless “there is ‘a textually demonstrable constitutional commitment of
the issue to a coordinate political department; or a lack of judicially discoverable and manageable
standards for resolving it.’ ” Zivotofsky, 566 U.S. at 195 (citations omitted).
Under those settled principles, these cases are justiciable. Like any other litigant, President
Trump is entitled to bring suit to vindicate his personal interest in preventing third-party disclosure
of his personal records, including on the grounds that respondents exceeded their powers in issuing
the subpoenas in light of the public office he holds. E.g., Eastland v. United States Servicemen’s
Fund, 421 U.S. 491, 501 n.14 (1975). Although resolving the merits of that claim requires
answering significant constitutional questions about the scope of legislative power under Article I
and the protections afforded the Executive under Article II, the suit itself is justiciable because the
President has Article III standing, see City of New York, 524 U.S. at 430; cf. Raines, 521 U.S. at
821-824, and because those questions are amenable to judicially manageable standards and their
resolution is not committed to the political branches. Respondents surely recognize as much:
despite having had every incentive to do so, they have never once raised justiciability concerns at
any stage of this litigation.
The Court’s long history of answering similar questions confirms that these cases are
justiciable. Most notably, this Court already held in United States v. Nixon, 418 U.S. 683 (1974),
that a President’s motion to quash a special prosecutor’s subpoena for his records—which is
closely analogous to the dispute here—was justiciable, including under the political-question
doctrine. And the Court has decided many cases adjudicating the validity of congressional
subpoenas, e.g., Kilbourn v. Thompson, 103 U.S. 168 (1881); McGrain v. Daugherty, 273 U.S.
135 (1927); United States v. Rumely, 345 U.S. 41 (1953); Watkins v. United States, 354 U.S. 178
(1957), as well as many cases addressing the scope of presidential prerogatives under Article II,
e.g., Mississippi v. Johnson, 71 U.S. (4 Wall.) 475 (1867); Nixon v. Fitzgerald, 457 U.S. 731
(1982); Clinton v. Jones, 520 U.S. 681 (1997), without ever suggesting that they were not
justiciable. There is no sound basis to conclude that cases raising both of those issues somehow
transform into nonjusticiable disputes. To the contrary, these cases raise none of the factors this
Court has identified as indicating a nonjusticiable political question. Nor do any other

2

jurisdictional or prudential doctrines preclude adjudication of these cases. If anything, prudential
concerns counsel in favor of resolving the merits of this dispute.
1.
As noted, the dispute over these subpoenas for the President’s personal records
presents a justiciable Article III controversy because of the unusual manner in which respondents
chose to draft and enforce the subpoenas: respondents targeted the private third-party custodians
of the President’s records, and the threat that those third parties would disclose his personal
information is what created an Article III injury allowing the President to sue. See Raines, 521
U.S. at 833-834 (Souter, J., concurring in the judgment); cf. City of New York, 524 U.S. at 430. If
respondents instead had sought the President’s records directly from him, he could have
“resist[ed],” Eastland, 421 U.S. at 501 n.14, in which event the parties would have had to engage
in the “accommodation” process that generally governs informational disputes between the
political branches, United States v. AT&T Co., 567 F.2d 121, 130 (D.C. Cir. 1977); see ibid.
(“Negotiation between the two branches should thus be viewed as a dynamic process affirmatively
furthering the constitutional scheme.”).
The parties would have been relegated to that accommodation process because respondents
could not themselves have sought judicial enforcement of subpoenas for the President’s records;
responsibility for enforcing congressional subpoenas ordinary falls to the Executive Branch. See
2 U.S.C. 192. Unlike the President’s suits here to vindicate his personal interest in protecting his
private information from disclosure, a suit by a House committee seeking to enforce a legislative
subpoena would be asserting only “a type of institutional injury” that cannot support Article III
standing. Raines, 521 U.S. at 821. Neither history nor precedent supports finding Article III
standing in a suit brought by “one or both Houses of Congress * * * on the basis of claimed injury
to official authority or power.” Id. at 826; see id. at 821-829. As a general matter, the
constitutional separation of powers “contemplates a more restricted role for Article III courts,”
with the judicial power exercised to protect “ ‘the constitutional rights and liberties of individual
citizens’ ” rather than “ ‘some amorphous general supervision of the operations of government.’ ”
Id. at 828-829 (citation omitted). And more specifically, the “[a]uthority to exert the powers of
the [Legislative Branch] to compel production of evidence differs widely from authority to invoke
judicial power for that purpose,” Reed v. County Commissioners of Delaware County, 277 U.S.
376, 389 (1928), consistent with the fundamental principle that “responsibility for conducting civil
litigation in the courts of the United States for vindicating public rights” is vested in the Executive
Branch, Buckley v. Valeo, 424 U.S. 1, 140 (1976) (per curiam). Indeed, a panel of the D.C. Circuit
recently held that the House Judiciary Committee could not bring suit for a claim “that the
Executive Branch’s assertion of a constitutional privilege is ‘obstructing the Committee’s
investigation.’ ” Committee on the Judiciary v. McGahn, 951 F.3d 510, 517 (D.C. Cir. 2020)
(citation omitted), reh’g granted, No. 19-5176, 2020 WL 1228477 (D.C. Cir. Mar. 13, 2020).
2.
These cases are different because petitioners, including President Trump in his
personal capacity, plainly have Article III standing. They have alleged an imminent concrete and
particularized harm (the exposure of confidential personal information), fairly traceable to the
congressional subpoenas demanding that information, which would be redressed by an injunction
against the disclosure of that information. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547-1548
(2016). Respondents have never contended otherwise. An ordinary citizen obviously would have
Article III standing to seek an injunction preventing compliance with third-party subpoenas

3

seeking to compel the production of his or her private documents. There is no reason that the
President in his personal capacity should be uniquely disabled in that respect.
To the contrary, this Court has recognized that elected officials who “claim that they have
been deprived of something to which they personally are entitled” have standing to bring their
claims, even when the alleged entitlements arise solely by virtue of their elected offices—“such as
their seats as Members of Congress after their constituents had elected them.” Raines, 521 U.S. at
821. That was why, for example, this Court found Article III standing in Powell v. McCormack,
supra, for a congressman’s claim that he had been unlawfully excluded from the House and denied
his salary. See Raines, 521 U.S. at 821 (discussing Powell ); see also Powell, 395 U.S. at 512-514;
Nixon, 418 U.S. at 697; cf. Jones, 520 U.S. at 707; Cheney v. United States District Court, 542
U.S. 367, 385 (2004). Likewise, President Trump has standing here because disclosure of his
private records, in addition to harming the Office of the President, also injures his personal
interests.
3.
The political-question doctrine does not prevent this Court from adjudicating these
cases any more than in Powell or Nixon. The mere fact of a clash between the interests of the
Legislative and Executive Branches does not preclude justiciability when, as here, the dispute
involves a public official who has an Article III injury to his personal interests and a legal claim
susceptible to judicial resolution.
a.
“In general, the Judiciary has a responsibility to decide cases properly before it,
even those it ‘would gladly avoid.’ ” Zivotofsky, 566 U.S. at 194 (citation omitted). The politicalquestion doctrine is a “narrow exception to that rule,” id. at 195, for certain disputes that “revolve
around policy choices and value determinations constitutionally committed for resolution to the
halls of Congress or the confines of the Executive Branch,” Japan Whaling Association v.
American Cetacean Society, 478 U.S. 221, 230 (1986). These cases involve neither policy choices
nor value determinations; instead, they present the straightforward legal question whether
respondents exceeded their constitutional authority in issuing the subpoenas here. That question
is plainly of a type appropriate for judicial resolution when raised by a plaintiff with Article III
standing to invoke the power of federal courts. Indeed, this Court has adjudicated many cases
raising similar issues without any suggestion that they raised political questions.
Most notably, in Nixon, this Court expressly held that President Nixon’s motion to quash
a special prosecutor’s subpoena seeking his records did not present a nonjusticiable political
question. See 418 U.S. at 692-697. The dispute in Nixon was between the special prosecutor, who
sought “the production or nonproduction of specified evidence,” and the President, who “resisted”
disclosure “on the ground of his duty to preserve the confidentiality of the communications of the
President.” Id. at 697. “Whatever the correct answer on the merits,” the Court explained, “these
issues are ‘of a type which are traditionally justiciable.’ ” Ibid. (citation omitted). So too here.
These cases involve a dispute between respondents, who seek the production of certain financial
records, and the President, who resists disclosure to protect both the confidentiality of his personal
information and the prerogatives of the Office of the President. If Nixon did not present a political
question, these cases do not either. Indeed, unlike in Nixon, the adversaries here are not both in
the same branch of government, making this an even easier case. Cf. id. at 693.
one.

Even apart from Nixon, this Court has a long history of adjudicating cases similar to this
The Court has frequently adjudicated cases examining the limits of a congressional
4

committee’s power to issue compulsory process. See p. 2, supra (listing cases); see also 19-715
Pet. App. 13a-22a (describing more cases). Likewise, this Court has adjudicated several cases
examining the protections implicit in Article II that enable the President and Executive Branch
officials to carry out their constitutional responsibilities. See p. 2, supra (listing cases). No sound
basis exists to conclude that the combination of those two issues, each of which independently is
justiciable, somehow creates a nonjusticiable political question.
To be sure, many of those cases arose in different procedural postures, but the procedural
posture of a case ordinarily does not bear on whether it presents a political question unamenable
to judicial resolution. If the enforceability of a congressional subpoena is not a political question
when raised as a defense to noncompliance with the subpoena, e.g., Watkins, 354 U.S. at 181-182,
it does not become a political question by virtue of being raised as an affirmative argument to
enjoin the subpoena’s enforcement in the first place (assuming, of course, it is raised by a plaintiff
with Article III standing). The applicability of the political-question doctrine to a substantive legal
question ordinarily does not change based on the procedural posture in which it arises.
b.
That these cases do not present a nonjusticiable political question is confirmed by
case law applying that doctrine in other contexts. This Court has explained that certain features
are “[p]rominent on the surface of any case held to involve a political question.” Baker v. Carr,
369 U.S. 186, 217 (1962). They include: (1) “a textually demonstrable constitutional commitment
of the issue to a coordinate political department”; (2) “a lack of judicially discoverable and
manageable standards for resolving it”; (3) “the impossibility of deciding without an initial policy
determination of a kind clearly for nonjudicial discretion”; (4) “the impossibility of a court’s
undertaking independent resolution without expressing lack of the respect due coordinate branches
of government”; (5) “an unusual need for unquestioning adherence to a political decision already
made”; and (6) “the potentiality of embarrassment from multifarious pronouncements by various
departments on one question.” Ibid. The first two appear to be the most important. See Zivotofsky,
566 U.S. at 195; Walter Nixon v. United States, 506 U.S. 224, 228 (1993).
None of those features is present in these cases, much less “[p]rominent on the surface” of
them. Baker, 369 U.S. at 217. The question presented here is whether respondents had the
authority to subpoena the personal records of the sitting President of the United States from private
third-party custodians. The Constitution does not textually commit the resolution of that issue to
the political branches. See, e.g., McGrain, 273 U.S. at 173-174; see also Zivotofsky, 566 U.S. at
197; Walter Nixon, 506 U.S. at 238. Nor is there a lack of judicially manageable standards for
resolving these cases. This Court has repeatedly held that a congressional committee may issue
compulsory process only pursuant to a legitimate task of Congress (usually legislation), and only
for information pertinent to that legitimate task. E.g., Kilbourn, 103 U.S. at 195; McGrain, 273
U.S. at 176-178; Quinn v. United States, 349 U.S. 155, 161 (1955). That is a judicially manageable
standard this Court has been applying for roughly a century. Likewise, this Court has long
adjudicated cases addressing the President’s protections from incursions on his authority that
would harass him or distract him from the performance of his constitutional duties. See, e.g.,
Johnson, 71 U.S. (4 Wall.) at 501; Fitzgerald, 457 U.S. at 749; Jones, 527 U.S. at 707. For
example, a qualified executive privilege protects the President’s official records from disclosure
absent a “demonstrated, specific need” for the records in a federal criminal trial, Nixon, 418 U.S.
at 713, or absent a showing that the records are “demonstrably critical” to a congressional
committee requesting them, Senate Select Committee on Presidential Campaign Activities v.

5

Nixon, 498 F.2d 725, 731 (D.C. Cir. 1974) (en banc). Those, too, are judicially manageable
standards. Whether the Court ultimately adopts one of those standards for the President’s personal
records at issue here, or instead articulates a different pertinence standard that respondents must
satisfy, that standard will be judicially manageable as well.
To the extent the remaining four features listed in Baker remain of continued vitality, but
cf. Zivotofsky, 566 U.S. at 197 (discussing only the first two), none of them is present in these
cases either. The Court need not make any “initial policy determination” about the wisdom of
issuing the subpoenas here to decide these cases; it need decide only whether the subpoenas are a
valid exercise of congressional authority with respect to the President’s records. Baker, 369 U.S.
at 217. And resolving an Article III controversy between the House and the President as to the
power of the former concerning the latter does not express a “lack of * * * respect” for either
coordinate branch of government. Ibid. Likewise, these cases present no need, much less an
“unusual need,” for “unquestioning adherence to a political decision.” Ibid. To the contrary,
whether the committees have the constitutional authority to subpoena the President’s personal
records under these circumstances is a legal question, not a political one. Finally, abstention will
not avoid any “embarrassment from multifarious pronouncements by various departments on one
question,” ibid., given that a House of Congress and the President already have taken opposite
sides in this litigation and “it is the responsibility of this Court to act as the ultimate interpreter of
the Constitution” when such disputes are presented in an Article III controversy, Powell, 395 U.S.
at 549.
Finally, these cases bear little resemblance to the three cases in which this Court has found
a political question in the last half-century: Gilligan v. Morgan, 413 U.S. 1 (1973); Walter Nixon,
supra; and Rucho v. Common Cause, 139 S. Ct. 2484 (2019). Gilligan involved a challenge “to
the composition, training, equipping, and control of a military force” that allegedly resulted in
excessive “ ‘use of fatal force’ ” when “ ‘nonlethal force would suffice.’ ” 413 U.S. at 4, 10 (citation
omitted). Walter Nixon involved a challenge by a former federal district judge to his Senate
impeachment proceedings on the ground that the Senate failed to “try” him under Article I because
only a committee, and not the full Senate, took part in certain evidentiary hearings. See 506 U.S.
at 227-228. Rucho involved claims that two States had engaged in excessive partisan
gerrymandering of electoral districts. See 139 S. Ct. at 2491.
“Prominent on the surface” of all three cases were “a textually demonstrable constitutional
commitment of the issue to a coordinate political department” and “a lack of judicially
discoverable and manageable standards for resolving it.” Baker, 369 U.S. at 217. The
Constitution’s text expressly commits military oversight, impeachment trials, and districting to the
political branches or the state legislatures, not the federal judiciary. See Gilligan, 413 U.S. at 10;
Walter Nixon, 506 U.S. at 230-236; Rucho, 139 S. Ct. at 2497, 2508. And there is no judicially
manageable standard for determining how best to train a military force, how to determine whether
the Senate has sufficiently “tried” an impeachment, or how to determine how much partisanship
in districting is too much. See Gilligan, 413 U.S. at 10; Walter Nixon, 506 U.S. at 230; Rucho,
139 S. Ct. at 2498.
4.
No other justiciability principle precludes this Court’s adjudication of these cases.
The dispute here plainly is ripe: the private respondents have been served with the subpoenas and
have indicated that they will produce the requested materials absent a court order to the contrary,
so this is not merely an “abstract[] disagreement” whose “effects [will not be] felt in a concrete
6

way by the challenging parties.” Abbott Laboratories v. Gardner, 387 U.S. 136, 148-149 (1967).
And the dispute obviously is not moot; the respondent committees have not withdrawn the
subpoenas and petitioners have not consented to disclosure of the requested information, and thus
“the parties [still] have a concrete interest * * * in the outcome of the litigation.” Chafin v.
Chafin, 568 U.S. 165, 172 (2013). At no point in this litigation have respondents identified any
other justiciability concerns that would preclude this Court’s review, and thus have forfeited any
such argument insofar as it is prudential rather than jurisdictional.
In fact, prudential concerns weigh in favor of the Court’s resolution of these cases.
Refusing to adjudicate the merits of this dispute would in effect give congressional committees
free rein to issue subpoenas to any third-party custodian without any meaningful checks or
balances, because such third parties often would be inclined to comply (as the third parties in these
cases have indicated they will). The President would be stripped of any ability to prevent
disclosures that are sought as an end-run around the negotiation and accommodation process, and
courts would be deprived of any ability to review whether the committees had the power to issue
the subpoenas in the first instance. Cf. Eastland, 421 U.S. at 501 n.14; Church of Scientology v.
United States, 506 U.S. 9, 18 n.11 (1992) (observing that a “third party presumably lacks a
sufficient stake in the proceeding to risk contempt by refusing compliance” with an order directed
to it).
That said, the prudential doctrine of constitutional avoidance suggests that this Court may
wish to decide these cases in a manner that avoids opining on the constitutional limits of
congressional power to issue the subpoenas here. As the government has explained (Gov’t Br. 3134), the House’s indiscriminate blessing of all past, current, and future investigations of the
President by any committee, for any reason, falls short even of the insufficient resolutions in
Rumely and Watkins. Here, as in those cases, the chamber has not “demonstrated its full awareness
of what is at stake” in this litigation. Rumely, 345 U.S. at 46. Indeed, there is no evidence that the
nature and scope of the informational requests in the subpoenas were ever specifically examined
by the full chamber. And the full House’s failure to set forth a legitimate legislative purpose for
each of the subpoenas and how the types of information sought are essential to achieving those
purposes—and instead delegating those tasks to the various committee chairs—“insulates the
House” from accountability and creates “a wide gulf between the responsibility for the use of
investigative power and the actual exercise of that power.” Watkins, 354 U.S. at 205.
For their part, the committee chairs too made little attempt to articulate why the information
the subpoenas seek is critical to a legitimate legislative purpose. The Oversight Committee chair
set forth law-enforcement and other purposes unlikely to result in legitimate legislation with
respect to the President, and then included a boilerplate assertion that its subpoena also would be
useful for “multiple laws and legislative proposals” without providing any indication of what they
might be. 19-5142 C.A. App. 107. And the other committees identified generic areas of potential
legislation, such as money laundering and foreign influence in campaigns, but did not explain why
they needed a decade’s worth of extensive financial information from the President to enact such
broadly applicable and prospective legislation. See 19A640 Resp. Br. 5, 9. Under those
circumstances, the Court should—as it did in Rumely and Watkins—invalidate the subpoenas
without opining on the constitutional limits of the House’s implied investigatory authority.
Executive and judicial officers do not expect that Congress may obtain their personal records on a
general assertion of purpose and a thin showing of need. Before the House asks this Court to

7

unsettle that expectation, it should demonstrate as a body that it appreciates the magnitude of its
request and the constitutional question it presents. See Tobin v. United States, 306 F.2d 270, 276
(D.C. Cir.), cert. denied, 83 S. Ct. 206 (1962) (“[A] due regard for the responsibility of
administering justice prompts us to avoid serious constitutional adjudications until such time as
Congress clearly manifests its intention of putting such a decisional burden upon us.”).
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

8

SERVICE LIST:
19-715 DONALD J. TRUMP, ET AL. V. MAZARS USA, LLP, ET AL.
19-760 DONALD J. TRUMP, ET AL. V. DEUTSCHE BANK AG, ET AL.
WILLIAM SPENCER CONSOVOY
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
STE. 700
ARLINGTON, VA 22209
703-243-9423
WILL@CONSOVOYMCCARTHY.COM
JERRY D. BERNSTEIN
BLANK ROME LLP
1271 AVENUE OF THE AMERICAS
NEW YORK, NEW YORK 10020
212-885-5511
JBERNSTEIN@BLANKROME.COM
DOUGLAS NEAL LETTER
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV
JAMES ALWIN MURPHY
MURPHY & MCGONIGLE, P.C.
1185 AVENUE OF THE AMERICAS
FLOOR 21
NEW YORK, NY 23219
212-880-3968
JMURPHY@MMLAWUS.COM
PRATIK ARVIND SHAH
AKIN GUMP STRAUSS HAUER & FELD, LLP
2001 K STREET, N.W.
WASHINGTON, DC 20006
202-887-4210
PSHAH@AKINGUMP.COM

PATRICK STRAWBRIDGE
CONSOVOY MCCARTHY PLLC
TEN POST OFFICE SQUARE
8TH FLOOR SOUTH PMB #706
BOSTON, MA 02109
202-522-3163
PATRICK@CONSOVOYMCCARTHY.COM

